No. 20A94

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY, INC.,
ITSELF AND ON BEHALF OF ITS MEMBER CHURCHES IN CALIFORNIA,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY
AS THE GOVERNOR OF CALIFORNIA,

Respondent.

CERTIFICATE OF COMPLIANCE
I, Paul M. Jonna, a member of the Bar of this Court and counsel for the amici
on the accompany Unopposed Motion by South Bay United Pentecostal Church and
Bishop Arthur Hodges III, with Attached Proposed Amicus Curiae Brief in Support of
Application and in Support of Emergency Application for Writ of Injunction, for Leave
(1) to File the Brief, (2) to Do So in an Unbound Format on 8½-by-11-inch Paper, And
(3) to Do So without Ten Days’ Advance Notice to the Parties, certify under Rule
33.1(h) of the Rules of this Court that the motion contains 825 words and the brief
contains 5,920 words, excluding the parts that are exempted by Rule 33.1(d).

________________________
Paul M. Jonna

